OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MOROCCO’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES

AUDIT REPORT NO. 9-000-08-006-P
March 28, 2008




WASHINGTON, DC
Office of Inspector General


March 28, 2008

MEMORANDUM

TO:                  USAID/Morocco Director, Monica Stein-Olson

FROM:                IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Morocco’s Democracy and Governance Activities (Report No. 9-
                     000-08-006-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your responses in appendix II. Following the
issuance of our draft report to you for comment, we consulted with our legal counsel and deleted
recommendation 1 and all references to the corresponding finding from this final audit report.
Accordingly, we have renumbered the recommendations in this report.

This report contains four recommendations intended to improve the implementation of USAID’s
democracy and governance activities in Morocco.          Based on your comments and the
documentation provided, we consider that final action has been taken on recommendation 4 and
that management decisions have been reached on recommendations 1, 2, and 3. A determination
of final action for recommendations 1, 2, and 3 will be made by the Audit Performance and
Compliance Division (M/CFO/APC) upon completion of the proposed corrective actions.

Again, I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

           USAID/Morocco Achieved Many Democracy and Governance
           Performance Targets............................................................................................. 6

           USAID Modifies Data Collection and Reporting .................................................... 7

           USAID/Morocco Reviews Performance Indicators Routinely................................ 9

           USAID/Morocco Should Amend Its Strategic Objective Grant
           Agreement with the Government of Morocco...................................................... 11

           USAID/Morocco Should Verify Reported Data Periodically ............................... 13

           USAID/Morocco Should Review Alternative Uses for Procured
           Property............................................................................................................... 15

Other Matter .................................................................................................................... 17

           Review of Unexpended Obligated Balances ....................................................... 17

Evaluation of Management Comments ....................................................................... 18

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 21

Appendix III – Operational Plan Standard Indicators for FY 2007 ............................ 24

Appendix IV – Performance Management Plan Indicators for
FY 2006 and FY 2007..................................................................................................... 26
SUMMARY OF RESULTS
This audit, performed by the Performance Audits Division, is the pilot in a series of audits
to be conducted by the Office of Inspector General. This audit report summarizes the
results of the audit conducted at USAID/Morocco, which was designed to determine
whether USAID/Morocco’s democracy and governance activities had achieved their
intended results and what has been the impact (see page 4).

Over the past decade, the Government of Morocco 1 has made significant progress in
implementing democratization and good governance reforms. To enhance these efforts,
USAID/Morocco developed a strategic objective to improve government responsiveness
to citizens and began the first of three projects—the parliamentary support project during
October 2004—and has implemented two other major projects: the local government
project during May 2005, and the electoral and political processes project in January
2007. The mission’s activities are designed to support the democratic progress of the
Government of Morocco with assistance that will promote a democratic, well-governed
nation, at an estimated cost of about $21 million. This audit focused on activities
pertaining to (1) governance, (2) civil society, and (3) elections and political processes
(see page 3).

USAID/Morocco has reported successes in achieving its goals and meeting its targets
for the majority of its democracy and governance activities during fiscal years 2007 and
2006, and the mission has taken proactive measures to increase its chances of meeting
all targets. Mission staff cited three primary reasons for not meeting some of its fiscal
years 2006 and 2007 targets: (1) management and staffing changes, (2) slow activity
startup, and (3) difficulties in working with some local Moroccan partners (see page 5).

During fiscal year 2007, USAID/Morocco’s democracy and governance activities
achieved their planned results for the standard indicators specified in the operational
plan. Of the 15 standard indicators, 2 the mission met or exceeded the targets for 14.
Although the mission fell short of its target to educate 15 million people through a voter
education project, implementers made a significant achievement in educating more than
10.5 million people (the voting population is 34 million) about parliamentary elections in
Morocco (see page 5).

During fiscal year 2006, the mission reported on its progress in achieving the targets for
the indicators established in a management plan to the Bureau for Asia and Near East
as part of its annual report (see appendix IV). Using the management plan in 2006,
USAID/Morocco reported to the Bureau that it met its targets for 18 of 21 indicators. The
three targets that the mission did not meet were the number of bills proposed by Members
of Parliament, the percentage of targeted local governments where community leaders
participate in decisions related to slum upgrading, and the percentage of local

1
  The Government of Morocco is represented by the Ministry of Finance and Privatization as
indicated in the mission’s strategic objective grant agreement dated April 30, 2004.
2
  A standard indicator is used primarily for public reporting in documents such as the
Congressional Budget Justification.


                                                                                          1
governments that have integrated planning, budgeting, and management systems. As a
management tool, USAID/Morocco used the management plan to internally assess its
progress toward achieving its goals for 27 indicators during fiscal year 2007. The
mission met performance targets for 21 indicators and did not meet targets for 4
indicators. Of the remaining two indicators, the mission did not have reported results for
one indicator as of September 30, 2007, and dropped one indicator earlier in the year
because the mission ended its work with one of the benefactors (see page 5.)

Nevertheless, USAID/Morocco should strengthen controls and procedures related to the
following: (1) amending its grant agreement with the Government of Morocco for its
democracy and governance activities, (2) reviewing standard provisions applicable to
democracy and governance programs, (3) verifying reported results, and (4) conducting
intermittent end-use checks for procured property (see pages 13 through 17).

This report includes four recommendations for USAID/Morocco:

    •   Amend its grant agreement with the Government of Morocco to reflect
        changes that have been made to the democracy and governance
        program (see page 13).

    •   In conjunction with the regional legal advisor and the regional contracting
        officer, review USAID standard provisions that are applicable to
        USAID/Morocco’s democracy and governance program, and establish a
        procedure to incorporate them into new agreements, as appropriate (see
        page 13).

    •   With respect to the democracy and governance program, develop a
        schedule to periodically sample and review its implementing partners’
        data for completeness, accuracy, and consistency (see page 15).

    •   Implement a procedure to conduct intermittent end-use checks for
        equipment financed by USAID that is in the custody of its recipients for
        the democracy and governance activities (see page 17).

In addition, the audit identified unexpended obligated balances for the democracy and
governance program activities from 2005 and 2006. However, USAID/Morocco
deobligated about $42,000 in unexpended obligated balances before the conclusion of
the audit (see page 17).

USAID/Morocco agreed with the findings and recommendations in the report.
USAID/Morocco has implemented and closed one recommendation and plans to
implement the remaining three recommendations. Management comments in their
entirety are included in appendix II.




                                                                                        2
BACKGROUND
As the main implementer of U.S. democracy and governance programs, USAID is
advancing the President’s freedom agenda. USAID has played a significant role in
supporting democracy and governance programs around the world and leading
countries to greater freedoms.

Attributes of good governance include transparency, accountability and equity.
Historically, USAID/Morocco’s democracy and governance program began as an effort
to make Morocco’s Parliament more responsive to its citizens. As part of a relatively
new program, the mission and its implementing partners designed activities to
strengthen Parliament’s oversight, policy assessment capacity, and national budget
review processes. A major component of the program seeks to increase citizen
involvement in policymaking through outreach efforts to develop government and citizen
partnerships that will improve leadership, practices, and systems of transparency and
accountability.

Over the past decade, Morocco has made significant progress in implementing
democratization and good governance reforms. Beginning in fiscal year 2005,
USAID/Morocco’s democracy and governance program has sought to support this
progress by focusing on (1) improving the national political environment, with particular
emphasis on the capacities of representative democratic institutions, such as Parliament
and political parties; (2) enhancing the capacity of local government to meet the needs of
its citizens by working to establish the policies and practices that will increase the access
of local government authorities to financing for local development; and (3) encouraging
transparency in governance by building the capacities of audit and oversight institutions.

To administer its programs, USAID/Morocco has contributed technical assistance and
other support through 11 implementing partners with contracts, grants, and cooperative
agreements valued at about $21 million. 3 Specifically, the mission awarded two
contracts to Research Triangle Institute and the International Development Group of the
State University of New York. Research Triangle Institute develops local government
project activities to bring citizens into the decisionmaking processes related to their
priority concerns, especially those related to low-income housing needs.           The
International Development Group conducts projects to provide assistance and training
activities at the Moroccan Parliament.

The audit focused on the following areas: (1) governance, (2) civil society, and (3)
elections and political processes. As of September 30, 2007, USAID/Morocco’s
democracy and governance program had total obligations of $19.3 million and total
expenditures of $13.7 million.




3
  The acquisition instruments consisted of two contracts, two grants, and seven cooperative
agreements.


                                                                                           3
AUDIT OBJECTIVE
As part of the fiscal year 2007 annual audit plan, the Office of Inspector General
conducted this pilot audit as the first in a series of worldwide audits of USAID’s
democracy and governance activities. The audit was designed to answer the following
question:

       Are USAID/Morocco’s democracy and governance activities achieving
       their intended results and what has been the impact?

Please refer to appendix I for the audit's scope and methodology.




                                                                                 4
AUDIT FINDINGS
USAID/Morocco has reported successes in achieving its goals and meeting its targets
for the majority of its democracy and governance activities during fiscal years 2007 and
2006 and has made a positive impact in Morocco.

USAID/Morocco’s democracy and governance activities achieved their planned results in
fiscal year 2007 for the standard indicators specified in the operational plan, which
includes quantitative indicators that all USAID operating units are required to report to
the Office of the Director of U.S. Foreign Assistance Bureau of the State Department. At
USAID/Morocco, the democracy and governance program reported on 15 standard
indicators documented in the fiscal year 2007 operational plan (see appendix III). The
mission met or exceeded the targets for 14 of the 15 indicators. Although the mission
fell short of its target to educate 15 million people through a voter education project,
implementers made a significant achievement in educating more than 10.5 million
people (the voter population is 34 million) about parliamentary elections.

Using the management plan in 2006, USAID/Morocco reported to the Asia and Near
East Bureau that it met the targets for 18 of 21 indicators. The three targets that the
mission did not meet were the number of bills proposed by Members of Parliament, the
percent of targeted local governments where community leaders participate in decisions
related to slum upgrading, and the percentage of local governments that have integrated
planning, budgeting, and management systems. Although not required for formal
reporting purposes, USAID/Morocco used its management plan to internally assess its
progress toward achieving its goals for 27 indicators during fiscal year 2007. The
mission met performance targets for 21 indicators and did not meet targets for 4
indicators. Of the remaining two indicators, the mission did not have reported results for
one indicator as of September 30, 2007, and dropped one indicator earlier in the year.
USAID/Morocco mission staff cited three primary reasons for not meeting some of its
targets: (1) management and staffing changes, (2) slow activity startup, and (3)
difficulties in working with some local Moroccan partners.

In January 2003, USAID required missions to develop standard indicators for the
programs in a management plan as a tool to plan and manage the process of assessing
and reporting progress toward achieving their strategic objectives. According to mission
officials, the standard indicators in the operational plan are generally quantitative rather
than qualitative. Consequently, to better assess the qualitative aspects of the program,
the mission continues to use the indicators documented in its management plan. As a
proactive measure to enhance management oversight, the mission’s review of
qualitative aspects of its democracy and governance activities provides a biannual
review to support periodic revisions to its indicators. To assist the mission in strategic
planning and program oversight, a contractor was hired to update the management plan
and revise the progress indicators annually, among other things. 4



4
  The contractor provides these services in collaboration with the mission’s strategic objective
teams, not only for the democracy and governance programs but also for the economic growth
and education programs.


                                                                                              5
USAID/Morocco has had a positive impact in Morocco and has achieved many of its
planned results. The achievements, as well as opportunities to improve performance
management or program operations, are discussed in the following sections.

USAID/Morocco Achieved Many
Democracy and Governance Performance Targets

USAID/Morocco has achieved many of its planned results, and the impact for Morocco
has been positive.

To promote increased government responsiveness to citizens, USAID funded the local
governance project, which organized the following activities:

   •   In Casablanca, elected officials and communal staff have initiated a
       process to develop codes of conduct that lay out the values and the
       commitment that underpin their public actions. Working with the mayor
       and municipality of Casablanca, a USAID implementing partner has
       promoted transparency and ethical behavior. Once the code was signed
       by both elected officials and city employees, the mayor committed to
       submitting the pact to the council, where it is expected to lead to trust,
       cooperation, partnership, and openness with local citizens.

   •   For the first time in Morocco, three cities (Casablanca, Marrakech, and
       Salé) are being rated by an internationally recognized credit-rating
       agency to improve their access to capital financing.

   •   In four rural communes in the province of Errachidia, USAID enabled the
       participation of nearly 7,000 people (more than half of whom were women
       or children) in determining local priorities within the framework of the
       national initiative for human development. USAID also supported the
       creation of a human development center in one of these communes, as
       well as income-generating activities for women and low-income
       populations.




                                                    Photo of a woman processing
                                                    palm dates into jam, using
                                                    USAID equipment, to generate
                                                    income at a facility in
                                                    Errachidia, Morocco. Taken by
                                                    an Office of Inspector General
                                                    auditor on October 27, 2007.




                                                                                     6
With USAID assistance and a professional working relationship with the Moroccan
Parliament, the mission’s implementing partner achieved the following:

   •   Created a budget analysis office, which, for the first time in Morocco’s
       history, provides Members of Parliament access to nonpartisan, objective
       budget analysis.

   •   Established a multipurpose multimedia hall that provides about 500
       Members of Parliament and 200 staff with a facility to train and
       communicate with constituents. The facility also provides access to a
       parliamentary database, a bill tracking system, and other global resources
       for   legislative   research,     continuing  education,     media,    and
       interparliamentary dialog.




                                                     Photograph     of    the     new
                                                     multipurpose multimedia hall in
                                                     Rabat, Morocco. Taken by an
                                                     Office of Inspector General
                                                     auditor on October 25, 2007.

   •   Created a “Get Out the Vote” campaign to educate voters, particularly
       women and youth, about the election process.               A “whistle-stop”
       technique, labeled “2007 Daba,” was fashioned to increase citizens’
       awareness of and participation in the election process. Ninety-six
       caravan stops targeted 64 cities to distribute voter education materials. In
       total, more than 6.3 million people attended the “2007 Daba” caravan
       stops.

As stated earlier, USAID/Morocco reported on the standard indicators in the operational
plan in fiscal year 2007. Although not required for formal reporting purposes,
USAID/Morocco used its management plan to internally assess its progress toward
achieving its goals. USAID/Morocco’s use of the management plan has helped it to
better assess the qualitative aspects of the program. The next two sections of the report
provide a more detailed explanation of the reporting requirements and procedures at the
mission.

USAID Modifies Data Collection and Reporting
USAID missions use a performance management plan (management plan) as a mission-
level management tool that focuses on the results and impact of a specific program.
The management plan helps the missions to plan and oversee their process for



                                                                                        7
assessing and reporting progress toward achieving a strategic objective. As indicated in
Automated Directives System (ADS) 203.3.3.1, Contents of a Complete Performance
Management Plan, the management plan must define at least one performance indicator
that will be used to measure progress toward intermediate results, 5 and baseline levels
and targets to be achieved over the life of the strategic objective. The management plan
should do the following:

           •    Include a calendar of performance management tasks with an
                illustrative timeline of tasks to be completed

           •    State the set of performance indicators that the operating unit will
                use to assess its progress

           •    Provide baseline values and target values

           •    Specify the source of data and data collection methods

           •    Specify the schedule for data collection

           •    Describe known data limitations

           •    Describe the quality assessment procedures that will be used to
                verify performance information

The management plan was not intended to be used for reporting purposes, but it
contained some standard indicators whose results were published in USAID annual
reports and Office of Management and Budget reports. Results published on the
standard indicators included USAID missions’ successes in achieving some of their
performance targets that link to the Agency’s strategic plan.

However, with the establishment of the Department of State’s new Office of the Director
of Foreign Assistance in 2006 and the introduction of foreign assistance reform by the
Foreign Assistance Office in 2007, USAID realigned its planning, budgeting, and
reporting system. Consequently, in February 2007, the State Department and USAID
produced the first set of joint operational plans as the operating unit-level planning,
budgeting, and reporting tool, which focuses primarily on the output level. 6 The
operational plan, organized around a new program hierarchy and covering a single year,
overtook the system of multiyear USAID mission strategies built on strategic objectives,
results frameworks, and annual reports upon which performance management plans had
been based. The program hierarchy upon which USAID now plans and reports
performance information is based on five objectives:

Objective 1:     Peace and Security
Objective 2:     Governing Justly and Democratically
Objective 3:     Investing in People
Objective 4:     Economic Growth
5
    An intermediate result is essential to achieving a strategic objective.
6
 On a lower level, the output level focuses on the expenditures of funds for a program in any one
year, and not on the program achievement.


                                                                                               8
Objective 5: Humanitarian Assistance

Beginning with 2007, all USAID operating units have been required to report on specific
standard indicators defined by the Office of Foreign Assistance and identified in the
operational plan, which is submitted to and approved by the Office of Foreign
Assistance. The operational plan includes consolidated information that will be reported
in the joint State-USAID highlights document, which will include summary budget,
performance, and financial information. The highlights document is also expected to
include major programmatic accomplishments to be published in February 2008. USAID
now uses some of the information from its data collection efforts to report on specific
accomplishments in the annual performance and accountability report.

Performance information serves two purposes:

       •   To help implement and manage programs in a way that will achieve
           the results we are committed to achieve

       •   To help communicate that progress in a way that is clear and credible

The Department of State and USAID collect data for two main purposes, using specific
types of indicators that are either custom or standard:

        (1) Custom indicators measure and manage operating units’ activities
             performance.

        (2) Standard indicators tell an Agency-level performance story.

Operating units use data collected for the custom indicators to manage for results (i.e.,
make program adjustments based on performance) and, Washington uses them to
communicate budgeting decisions. Data collected regarding the standard indicators are
used primarily for reporting in documents such as the Congressional Budget
Justification, congressional notifications, joint performance plan, performance and
accountability report, and the program assessment rating tool.


USAID/Morocco Reviews
Performance Indicators Routinely
Automated Directives System (ADS) 203.3.4.2 requires that performance indicators (1)
be precisely defined in the performance management plan and (2) measure changes
that are clearly and reasonably attributable, at least in part, to USAID efforts. Moreover,
ADS 203.3.4 states that performance indicators should be used to observe progress and
to measure actual results compared to expected results for one dimension. In this
regard, performance indicators help to assess an operating unit’s achievement of
planned results for an objective. In addition, ADS 203.3.4.2 states that performance
indicators should closely track the results they are intended to measure and should be
unambiguous about what is being measured.

In accordance with ADS requirements, USAID/Morocco reviews its performance
indicators each year. In fact, the mission began reviewing its portfolio biannually in May


                                                                                         9
2007 and held its second review in November 2007. According to the mission,
monitoring and evaluation is an essential component of management for results, and
staff continues to review the indicators to ensure that program goals relate to the
immediate needs of the benefactors. As a proponent for continued improvement, in July
2005 the mission awarded Management Systems International a 2-year, $242,000
contract to provide monitoring and evaluation services. Subsequently, the mission
extended the contract to July 2008 for $741,000. Management Systems International
was responsible for annually updating the mission’s performance management plan and,
as necessary, revising results frameworks and progress indicators and assessing the
extent to which indicators remain relevant and useful as the nature of activities changes
over time.

Although the mission generally met its performance targets, the audit team found
problems with some of the indicators. Three of the 27 performance indicators in
USAID/Morocco’s May 2007 performance management plan were either too general,
were not clearly defined, or did not reflect program activities or objectives. These
indicators, which were not required to be reported in the fiscal year 2007 operational
plan, were as follows:

(1) Improvements in the structure and form of committee reports (corresponds to
indicator 7 in appendix IV), which measures the improvements in the structure and form
of committee reports. According to an implementing partner and the monitoring and
evaluation contractor, this indicator should not be measured under the program because
it does not have any significance when assessing the program as a whole. The
committee reports were once handwritten, but after the program developed a template to
record committee reports this indicator became irrelevant.

(2) Increase the number of Parliament staff with specialized budgetary responsibilities
(corresponds to indicator 9 in appendix IV), which measures the number of Parliament
staff who have been trained to assume specialized budgetary responsibilities. (The
implementing partner reports that the majority of the budget staff have been trained, and
the implementing partner has notified the mission’s monitoring and evaluation contractor
that the indicator will need to be changed). The indicator is not reflecting the work that is
actually being conducted as the activity has shifted focus and now trains Members of
Parliament and members of political parties who are interested in the training.

(3) Percentage of local governments that have integrated planning, budgeting, and
management systems (corresponds to indicator 25 in appendix IV), which has been
significantly hampered because of local conditions outside the control of the mission and
the implementing partner. Consequently, the implementing partner has not been able to
conduct its work to achieve the planned results required for this indicator in fiscal years
2006 and 2007.

In addition, USAID/Morocco has been measuring seven of its 2006 and 2007 indicators
as percentages without numbers. In accordance with the operational plan requirement
to quantify achievements as a percentage, USAID/Morocco collected data on the seven
indicators and reported the target information as a percentage for each. Although the
joint State-USAID highlights document information and report it as percentages, one of
the mission’s implementing partners and the monitoring and evaluating contractor stated
that measuring indicators as a percentage causes difficulties when comparing the results
for any specific time period to results in another time period. For example, a project in


                                                                                           10
its first year achieved its goals in 3 of 10 cities, resulting in a 30 percent rate of
accomplishment. During the second year, however, the project achieved its goals in four
of seven cities, thus achieving 57 percent, which appears to be 27 percent increase from
the first year. But comparatively, if the first-year data continued to be used, the net
result of achievement would be only 10 percent greater, an incorrect interpretation of the
results achieved. Both percentages and number should be used to measure these
indicators.

The mission recognizes that some indicators should be revised and plans to incorporate
these revisions into its next review during May 2008. Although the reviews are
conducted, mission staff planned to address some of the noted problems with the
indicators during its formal review sessions. According to the mission, staff and
implementers began its biannual portfolio reviews in May 2007. The mission will need to
reassess its program needs to determine whether revisions are necessary for the
democracy and governance program indicators in the performance management plan,
too. Since the mission routinely reviews and revises its performance indicators
biannually, the audit team is not making a recommendation at this time.

Although USAID/Morocco’s democracy and governance program has achieved many of
its planned results and had a positive impact in Morocco, opportunities exist to improve
performance management or program operations related to (1) amending its grant
agreement with the Government of Morocco for its democracy and governance activities,
(2) reviewing standard provisions applicable to democracy and governance programs,
(3) verifying reported results, and (4) conducting intermittent end-use checks for
procured property. The audit team also noted one other matter related to unexpended
obligated balances, which is included in the following sections.


USAID/Morocco Should Amend Its
Strategic Objective Grant Agreement
with the Government of Morocco
 Summary: ADS chapter 350.2 states that USAID operating units, within their delegated
 authorities, are responsible for preparing, negotiating, signing, and implementing a grant
 agreement to further strategic plans and management contracts. Although the overall
 strategic objective and intermediate results remain unchanged, some activities documented
 in the existing agreement have been modified. Since USAID/Morocco executed its
 agreement with the Government of Morocco in 2004, some updated references to U.S.
 laws, statutes, or regulations, as well as changes to the planned program, may need to be
 included in a revised or amended agreement. Because mission officials considered
 activities in the grant agreement to be representative of activities that could occur, the
 current agreement does not describe the actual activities being implemented or supported
 by the Moroccan Parliament.

ADS 350.2 states that USAID operating units, within their delegated authorities, are
responsible for preparing, negotiating, signing, and implementing grant agreements to
further their strategic plans and management contracts. The strategic objective grant
agreement was the principal agreement used by USAID/Morocco.




                                                                                          11
As reported previously, 7 USAID’s use of grant agreements helps to ensure that its
operational units address the most imperative needs of a country in which the Agency
and its partners conduct program activities. As a partnership, a grant agreement
between USAID/Morocco and the Government of Morocco helps to identify activities of
mutual interest that will be designed to address immediate needs.

USAID/Morocco signed a strategic objective grant agreement on April 30, 2004. This
agreement was intended to achieve the strategic objective, “Increased Government
Responsiveness to Citizens,” which is directed at promoting democracy and good
governance through more transparent, accountable, and equitable governing institutions
at both the national and subnational levels. To achieve the strategic objective, the
Moroccan government and USAID agreed to work with technical ministries and other
entities to improve the national political environment, encourage transparency in
government, and improve local government performance.

Although the overall strategic objective and intermediate results remain unchanged,
some activities documented in the existing grant agreement have been eliminated or
changed, in part because of changes in the commitment from some local Moroccan
partners. First, the grant agreement included activities with the Court of Accounts. 8
However, all activity planned with the Court of Accounts has been eliminated owing to
the lack of cooperation from the Court of Accounts. Second, the project “Regionalizing
of Participatory Strategic Planning” was targeted at the regional level to increase the
interaction between local partners and elected regional councils. Planned activities
included the following:

    •   Providing training for regional council members and private sector leaders
        in strategic planning methods

    •   Initiating public dialogs at all governmental levels on economic growth
        strategies and equity issues

    •   Supporting regional investment centers in their coordination of technical
        input into the development vision through the convening of a consultative
        group of experts

The mission considered activities in the grant agreement to be “illustrative,” and
therefore did not believe they needed to be updated. Furthermore, the mission used a
memorandum of understanding with the Court of Accounts to define the terms and
responsibilities of the parties. Since USAID/Morocco executed its grant agreement with
the Government of Morocco in 2004, some U.S. laws, statutes, or regulations that may
need to be referenced in the agreement will also need to be included in the amended
agreement. For example, section 7.3 standard provisions annex of the grant agreement
did not include the standard provision for implementation of Executive Order 13224 on
terrorism financing.      This provision reminds recipients that U.S. law prohibits

7
 Audit report 1-518-07-003-P, Audit of USAID/Ecuador’s Democracy and Governance Activities,
dated December 14, 2006.
8
  The Moroccan Court of Accounts was created in September 1979 as a supreme audit institution
charged with the responsibility of exercising the highest level of audit of the execution of financial
laws.


                                                                                                   12
transactions with, and the provision of resources and support to, individuals and
organizations associated with terrorism. Although this clause is not specifically required
in the standard provisions of the grant agreement, the mission should determine its
applicability.

A current or updated grant agreement can better describe the actual activities being
implemented and can help the mission reassess the support of the Moroccan
government and identify the activities in which the Moroccan government is currently
interested and thus, willing to support. As stated in annex 2, section A.2 of the grant
agreement, “Implementation Letters,” USAID will issue implementation letters that will
furnish additional information about matters stated in the grant agreement and may also
issue jointly agreed-upon implementation letters to confirm and record the mutual
understanding on aspects of the implementation of the agreement. The implementation
letters can also be issued to record revisions or exceptions that are permitted by the
grant agreement. Therefore, we are making the following recommendations:

       Recommendation No. 1: We recommend that USAID/Morocco amend its
       grant agreement with the Government of Morocco to update changes that
       have been made to the democracy and governance program.

       Recommendation No. 2: We recommend that USAID/Morocco, in
       conjunction with the regional legal advisor and the regional contracting
       officer, review all USAID standard provisions that are applicable to
       USAID/Morocco’s democracy and governance programs and establish a
       procedure to incorporate them into new agreements, as appropriate.

USAID/Morocco Should Verify
Reported Data Periodically

 Summary: ADS 203.3.5.2 states that the operating unit should be aware of the strengths
 and weaknesses of its data and to what extent the data can be trusted to influence
 management decisions.         Also, the mission’s data quality assessment dated
 September 28, 2007, recommended that USAID/Morocco periodically validate the
 integrity of the data collected on the reported indicators. However, mission officials did
 not conduct periodic testing and verification of the quality of the data provided to them
 because they relied on contractors to report data and ensure data quality. As a result, some
 reporting errors occurred. Therefore, decisionmakers may not have had the best available
 data on which to base management decisions regarding the program’s performance and
 budgetary requirements. Moreover, the mission may not receive proper credit for
 achievements that result from its programs.

ADS 203.3.5.2 states that the operating unit should be aware of the strengths and
weaknesses of its data and to the extent to which the data can be trusted to influence
management decisions.        Additionally, USAID’s performance management toolkit
supplementary guidance document states that the goal of assessing data from
implementing partners and secondary sources is to be aware of the data strengths and
weaknesses and the extent to which data can be trusted when making management
decisions and reporting. It also states that a practical approach to planning data quality
assessments includes an initial data quality assessment and periodic quality reviews for



                                                                                            13
completeness, accuracy, and consistency. According to the mission’s data quality
assessment dated September 28, 2007, USAID/Morocco should periodically validate the
integrity of the data collected on the reported indicators through spot checks to ensure
that the numbers reported are accurate and could be supported.

However, mission officials did not conduct periodic testing and verification of the quality
of the data provided to them, and therefore relied too heavily on the results reported by
the implementing partners. In general, mission staff relied on contractors to report data
and ensure data quality. Also, mission staff relied on the monitoring and evaluation
contractor to perform data quality assessments of the reported results. However, the
monitoring and evaluation contractor was not tasked with spot-checking the results to
ensure their accuracy. The data quality assessment conducted by the monitoring and
evaluation contractor recommended that mission staff be responsible for this role.

Sample tests of data from implementing partners revealed some errors in the reported
numbers. The differences noted in the reported numbers are described in table 1, which
includes indicators from both the operational plan (OP) and the mission’s management
plan (MP).


Table 1: Differences Noted in the Reported Results

                                               Reported     Actual result       Variance
                 Indicator                    by mission    supported by
                                                           documentation
 Percentage of local governments that
 have expanded and/or improved                   17%             14%              +3%
 community services in
 poor/disadvantaged areas (MP)
 Percentage of Inspectors General of
 Administrative Territories using advanced       15%             20%              -5%
 auditing methods and investigative
 techniques (MP)
 Number of civil society organizations
 receiving U.S. Government-assisted              303             216              +87
 training in advocacy (OP)
 Number of U.S. Government-assisted civil
 society organizations that participate in       286             199              +87
 legislative proceedings and/or engage in
 advocacy with national legislature and its
 committees (OP)
 Number of individuals who received U.S.
 Government-assisted training, including         659             709               -50
 management skills and fiscal
 management to strengthen local
 government and/or decentralization (OP)
 Number of government officials receiving
 U.S. Government-supported                       155             148               +7
 anticorruption training (OP)




                                                                                         14
Although the examples in table 1 did not result in any material inaccuracies or distortions
in the mission’s reported data for fiscal years 2006 and 2007 that would result in a
change to the overall audit conclusions, these examples collectively highlight the need
for the mission to strengthen its data quality assurance procedures. Data quality
assessments and periodic verification of reported results to supporting documentation
ensure that consistent and reliable data are collected for management decisionmaking
purposes as well as for reporting purposes. Without such assurances, decisionmakers
may not have the best data on which to base management decisions regarding
programs, performance, and budgetary requirements. Furthermore, the mission may not
receive proper credit for achievements that result from its programs. Consequently, we
are making the following recommendation:

          Recommendation No. 3: We recommend that USAID/Morocco, with
          respect to the democracy and governance program, develop a schedule
          to periodically sample and review its implementing partners’ data for
          completeness, accuracy, and consistency.


USAID/Morocco Should Review
Alternative Uses for Procured Property
    Summary: Through the parliamentary support project, USAID provided approximately
    $32,0009 to purchase a high-capacity printer for the Moroccan Parliament to print mass
    volumes of documents. However, the Government of Morocco information technology staff
    began providing the session minutes to members via the Parliament Web site during the
    October 2007 session. Consequently, the transcribers and editors use the printer on a
    limited basis, so the printer is not being used for its intended output capabilities.
    USAID/Morocco confirms that USAID-procured commodities are being used as specified in
    agreements and ADS 324.5.6 through end-use checks at the end of the project and not
    during the life of the project. Also, the implementing partner was not aware of the printer’s
    limited use owing to the lack of a monitoring and evaluation staff person who could have
    detected that the printer was not being used for its intended purpose. The printer is not
    being used for the purpose for which it was intended. Since the printer is capable of printing
    many different fonts, the Parliament’s print shop could achieve a great benefit from its
    expanded use.

USAID/Morocco’s implementing partner designed its parliamentary support project,
among other things, to help the Moroccan Parliament adopt more accountable and
equitable governance mechanisms. To achieve intended results for a part of this
project, the implementing partner procured a verbatim transcription system. As a
component of the transcription system, the implementing partner procured a high-
capacity printer to provide Members of Parliament and other interested parties with
copies of the session minutes in a timely manner. The printer procured met the
minimum production requirements mandated by the Constitution of the Moroccan
Parliament.

9
 As of October 30, 2007, the currency exchange rate was $1 to 7.8642 Moroccan dirham. The
cost of the printer was 250,000 dirham, or $31,803.



                                                                                                 15
Through the parliamentary support project, USAID provided approximately $32,000 to
purchase a high-capacity printer for the Moroccan Parliament. A consultant to the
USAID implementing partner recommended this printer because of its capability to
produce mass volumes of documents for more than 500 Members of Parliament.
According to USAID’s implementing partner, transcribers used the printer to enhance the
production and distribution of the Parliament’s session minutes, which decreased the
time required to publish the records. Within 48 hours of a legislative session,
transcribers and editors were able to provide session minutes to Members of Parliament.
Transcribers used the printer during the 2006 fall session, but about 9 months after the
printer was placed into service, the transcribers and editors stopped using the printer for
this purpose.




                                                        Photograph of a wav pedal
                                                        and the central processing
                                                        unit purchased by USAID as
                                                        part of the parliamentary
                                                        support project.    The wav
                                                        pedal allows a user to control
                                                        the playback speed of a
                                                        recorded voice. Taken by an
                                                        Office of Inspector General
                                                        auditor on October 25, 2007,
                                                        in Rabat, Morocco.


ADS 324.5.6, “End-Use Checks,” requires missions to confirm that USAID-procured
commodities are being used as specified in agreements. According to the mission,
these end-use checks are conducted upon completion of the project and not during the
life of the project. Also, the implementing partner was not aware of the printer’s limited
use owing to the lack of a monitoring and evaluation staff person who could have
detected that the printer was underused.

Although USAID purchased the printer to provide mass volumes of documents to the
Moroccan Parliament, the information technology staff began providing the session
minutes to members via the Parliament Web site during the October 2007 session.
Consequently, the transcribers and editors use the printer on a limited basis, resulting in
the printer not being used for its intended output capabilities.

The printer’s limited use results in a low return on USAID’s investment. The high-
capacity multifont printer procured under the project is not currently used to its maximum
capacity. Considering its capability to print in many different fonts, the printer could be
maximized in a bilingual setting such as Morocco. Since the mission has transferred
ownership of the printer to the Parliament, we are not making a recommendation related
to the printer. However, we are making the following recommendation related to end-
use checks:


                                                                                         16
       Recommendation No. 4: We recommend that USAID/Morocco implement
       a procedure to conduct intermittent end-use checks for equipment
       financed by USAID that is in the custody of its recipients for the
       democracy and governance activities.



Other Matter

Review of Unexpended
Obligated Balances
ADS 621.3.17 refers to a review of unexpended obligated balances, also referred to as
section 1311 of the Federal Managers’ Financial Integrity Act. This review is conducted
at least annually to determine the amount of unexpended obligations remaining for each
funding line. According to the ADS, unexpended obligated balances must be monitored
to ensure that the level of funding is consistent with Agency forward-funding guidelines
and that balances are deobligated when no longer needed for the purposes for which
they were initially obligated.

USAID/Morocco reviews its unexpended obligated balances at least twice a year.
However, during a review of the Summary Report of Sub-Obligations dated October 22, 2007,
unexpended obligated balances valued at approximately $42,000 from 2005 and 2006 had
not been expended. For example, salaries and benefits, travel authorizations, and other
vendor amounts from 2005 and 2006 had not been deobligated in a timely manner, as
indicated in table 2:

Table 2: Unexpended Obligated Balances from 2005 and 2006

            Description                              Amount
            Salaries and benefits                    $38,800
            Travel authorizations                      1,333
            Various vendors                            2,084
            Total                                    $42,217

For various reasons attributable to the management-to-budget process, lack of staff, and
management oversight, the mission did not deobligate these funds in a timely manner.
Mission officials agreed with the observation at the time of the audit and have taken
action to deobligate the amounts mentioned above. Therefore, we are not making a
recommendation at this time.




                                                                                       17
EVALUATION OF
MANAGEMENT
COMMENTS
USAID/Morocco’s comments to the draft report are included in their entirety in appendix II.

In its comments to the draft report, the mission agreed with the five recommendations
presented. However, following the issuance of the draft report to the mission for comment,
the audit team consulted with legal counsel and deleted recommendation 1 and all
references to the corresponding finding from this final audit report. Accordingly, the
recommendations in this report have been renumbered.

A determination of final action with regard to the measures taken by the mission to address
the recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.

In response to recommendation 1, the mission agreed to amend its grant agreement with
the Government of Morocco during the fiscal year 2008 incremental funding period to
update changes that have been made to the democracy and governance program.
Therefore, a management decision has been reached on this recommendation.

Regarding recommendation 2, the mission agreed to include the applicable standard
provisions in the amended grant agreement and incorporate standard provisions that are
applicable in new agreements. Therefore, a management decision has been reached on
this recommendation.

In response to recommendation 3, the mission agreed to plan and implement improved
monitoring of performance data and intends to submit a plan of action to the Office of
Inspector General by May 2008. Therefore, a management decision has been reached
on this recommendation.

Regarding recommendation 4, the mission has implemented a procedure to conduct
intermittent end-use checks for equipment financed by USAID that is in the custody of its
recipients of its democracy and governance activities. A review of the mission’s new
procedures and documents found them to be sufficient to address the recommendation.
Therefore, final action has been taken on this recommendation.




                                                                                          18
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted Government auditing standards to determine if USAID/Morocco’s democracy
and governance activities had achieved their intended results and what has been the
impact of its program. Audit fieldwork was conducted at USAID’s headquarters in
Washington, DC, and at USAID/Morocco from August 16 through October 31, 2007.
The audit covered the period from October 1, 2005, through September 30, 2007, but in
cases where related activities expanded beyond that period—such as the contracts with
the Research Triangle Institute and the State University of New York, which began in
fiscal year 2005—we considered supporting documentation from prior periods.

In planning and performing the audit, we assessed management controls related to
management review, proper execution of transactions and events, and review of
performance measures and indicators. Specifically, we evaluated (1) the fiscal year
2006 annual report (not required for fiscal year 2007), (2) the fiscal year 2007
operational plan (new requirement for fiscal year 2007), (3) the fiscal year 2007
performance management plan, (4) the Federal Managers’ Financial Integrity Act of
1982, (5) the award oversight performed by cognizant technical officers, (6) performance
measures, (7) actual performance results, (8) the fiscal year 2007 data quality
assessment, and (9) financial reports. We also conducted interviews with key
USAID/Morocco personnel and implementing partners at USAID/Morocco and at various
project locations throughout Morocco, including Casablanca and Errachidia.

As of September 30, 2007, USAID/Morocco’s democracy and governance program had
11 active agreements with total obligations of $19.3 million and total expenditures of
$13.7 million. We reviewed five of the largest active agreements representing 93
percent of the program’s total expenditures, or $12.8 million. The five agreements were
implemented by the Research Triangle Institute, the State University of New York, the
International Republican Institute, and the National Democratic Institute.

Methodology
To answer the audit objective, we reviewed the fiscal year 2007 operational plan’s
planned and actual results. At USAID/Morocco, the democracy and governance
program reported on 15 standard indicators in its operational plan. We also reviewed
the mission’s performance management plan’s planned and actual results for fiscal
years 2006 and 2007. The mission’s performance management plan reported on 21
indicators in 2006 and 27 indicators in 2007.

To verify the mission’s determination of the project’s performance, we validated
performance results and compared reported information to documented results for a
judgmentally selected sample of indicator data results submitted by implementing
partners as of September 30, 2007, for the operational plan and for the performance
management plan as of September 30, 2006, and September 30, 2007. We concluded
that the mission met its targets if it achieved at least 80 percent of its planned results.



                                                                                        19
                                                                           APPENDIX I



For the five largest agreements selected, we reviewed the implementing partners’
agreement documents, progress reports, and work plans.

We reviewed applicable laws and regulations and USAID policies and procedures
pertaining to USAID/Morocco’s democracy and governance program including the
following: Federal Managers’ Financial Integrity Act of 1982; Foreign Assistance Act of
1961 section 116 (e); Automated Directives System chapters 201, 203, 253, 324, 350,
and 621; and Executive Order 13224 on terrorism financing.

We also reviewed obligating and budget reports as of September 30, 2007, and current
reports for which fieldwork took place. We judgmentally selected three projects for site
visits: (1) Cities Without Slums Project in Casablanca, (2) National Human Development
Initiative in Errachidia, and (3) the Parliamentary Support Project in Rabat. We also
interviewed USAID/Morocco’s democracy and governance cognizant technical officers,
regional legal advisor, financial analyst, monitoring and evaluation specialist, and
implementing partners.




                                                                                      20
                                                                           APPENDIX II



MANAGEMENT COMMENTS



Memorandum
To:      IG/A/PA. Director, Steven H. Bernstein

From: USAID/Morocco Mission Director, Monica Stein-Olson
Date: March 28, 2008
Re:      Response to Draft Report on Audit of USAID/Morocco’s Democracy
         and Governance (7-608-05-XXX-P) date of the report.




Recommendation No. 1:

       Recommendation No. 1: We recommend that USAID/Morocco, in
       conjunction with the regional contracting officer establish a procedure for
       continual review and amendment of the democracy and governance
       agreements to comply with funding restrictions of the section 116 (e) of
       the Foreign Assistance Act of 1961.

The Mission has identified four agreements to be amended to comply with
funding restrictions of the section 116(e) of the Foreign Assistance Act of 1661.
(Attached are scanned copies of the agreements amendments). The Contracting
Officer has agreed to include these restrictions in each new Democracy and
Governance award.

In view of the above, the Mission believes that management decision has
been made and actions taken in order to fully close Recommendation No. 1
upon final report issuance.




                                                                                     21
                                                                       APPENDIX II


Recommendation No. 2 & 3:

       Recommendation No. 2: We recommend that USAID/Morocco amend its
       grant agreement with the Government of Morocco to update changes that
       have been made to the Democracy and Governance program.

       Recommendation No. 3: We recommend that USAID/Morocco, in
       conjunction with the regional legal adviser and the regional contracting
       officer, review all USAID standard provisions that are applicable to
       USAID/Morocco’s democracy and governance programs and establish a
       procedure to incorporate them into new agreements, as appropriate.

       Mission agreed to include the recommended update changes that have
       been made to the DG program and the standard provisions, as
       necessary, in the SOAG amendments to be issued for FY 08 incremental
       funding.

       Mission Agreed, in conjunction with the regional legal advisor and the
       contracting Officer to develop a checklist of USAID standard provisions
       that are applicable to USAID/Morocco’s democracy and governance
       programs and incorporate them into new agreements as appropriate
       starting May 2008.

Recommendation No. 4

       Recommendation No. 4: We recommend that USAID/Morocco, with
       respect to the Democracy and Governance program, develop a schedule
       to periodically sample and review its implementing partners’ data for
       completeness, accuracy, and consistency.

The Mission has agreed to plan and implement improved monitoring of
performance data. A general plan of action will be provided to the IG in May
2008.Furthermore, the Mission will generalize this procedure across the portfolio.

Recommendation No. 5

       Recommendation No. 5: We recommend that USAID/Morocco implement
       a procedure to conduct intermittent end-use checks for equipment
       financed by USAID that is in the custody of its recipients for the
       Democracy and Governance activities.

The Mission has developed a procedure for end-use review for equipment
financed by USAID. The subject procedure includes the alternative use of
commodities if, for some reason, it is not needed for the intended use.
Furthermore, the Mission is in the process of generalizing this procedure across
the portfolio. The Mission will present information to its contractors and grantees,


                                                                                   22
                                                                APPENDIX II


including CTOs and activity managers, on end-use check procedures (attached
are the procedure and the Power Point presentation)

In view of the above, the Mission believes that a management decision has
been made and actions undertaken in order to fully close Recommendation
No. 5 upon final report issuance.



Based on the information provided above, we hereby request IG/ W to close
recommendations one and five upon issuance of the final report.




                                                                              23
                                                                                    APPENDIX III


             Operational Plan Standard Indicators for FY 2007

                          Indicator Title                   Target for     Actual for
                                                             FY 2007       FY 2007 10
         1. Number of national legislators and national        603            780
         legislative staff attending U.S. Government-
         sponsored training on educational events
                 Number of women                               108            170
                 Number of men                                 495            610
         2. Number of civil society organizations               80            216
         receiving U.S. Government-assisted training in
         advocacy
         3. Number of national executive oversight            10,158         10,215
         actions taken by legislature receiving U.S.
         Government assistance
         4. Number of public forums resulting from U.S.          5             17
         Government assistance in which national
         legislators and members of the public interact
         5. Number of draft laws subject to final vote in      101            103
         new or transitional legislatures receiving U.S.
         Government assistance
         6. Number of U.S. Government-assisted civil           110            199
         society organizations that participate in
         legislative proceedings and/or engage in
         advocacy with national legislature and its
         committees
         7. Number of subnational governments                    3              3
         receiving U.S. Government assistance to
         increase their annual own-source revenues
         8. Number of laws or amendments promoting               1              1
         decentralization drafted with U.S. Government
         assistance
         9. Number of subnational government entities           17             18
         receiving U.S. Government assistance to
         improve their performance
         10. Number of local mechanisms supported               13             13
         with U.S. Government assistance for citizens
         to engage their subnational government




10
  We concluded that the mission met its targets if it achieved at least 80 percent of its planned
results.



                                                                                               24
                                                                   APPENDIX III



11. Number of local nongovernmental and             97           130
public sector associations supported with U.S.
Government assistance
12. Number of individuals who received U.S.         400          709
Government-assisted training, including
management skills and fiscal management, to
strengthen local government and/or
decentralization
13. Number of government officials receiving        100          148
U.S. Government-supported anticorruption
training
14. Number of domestic election observers           570         3,200
trained with U.S. Government assistance
       Number of women                              130          640
       Number of men                                440         2,560
15. Number of people reached by U.S.             15,000,000   10,550,000
Government-assisted voter education




                                                                             25
                                                                                  APPENDIX IV


              Performance Management Plan Indicators for
                                FY 2006 and FY 2007 11
         Performance Indicator               Target for   Actual for    Target for   Actual for
                                              FY 2006      FY 2006       FY 2007      FY 2007
 1. Index of civil society organization
 perception of parliamentary interactions       4.9           4.5          5.6            7
 2. Number of examples where local
 government decisionmaking is
 influenced by civil society                     15           19            20           21
 3. Number of committee initiatives
 designed to conduct oversight on
 government on budgetary and financial
 issues                                          6             5            8             6
 4. Number of substantive voted
 amendments in the four target
 committees                                      60           72            72           106
 5. Number of bills proposed by
 Members of Parliament                           31           19            28           21
 6. The quality of bills proposed by
 Members of Parliament                          4.07         4.09          4.6           4.2
 7. Improvements in the structure and
 form of committee reports                      3.9           3.8          4.1           4.3
 8. Civil society organization advocacy
 capacity index                                  6            7.3           8            9.3
 9. Number of parliamentary staff with
 specialized budgetary responsibilities          30           34            32           44
 10. Number of recorded requests by the
 finance committees in both chambers for
 specialized information pertaining to the
 budget                                         303           334          340           360
 11. Number of committee amendments
 drafted included in the final budget            12           33            35           58
 12. Number of parliamentary advocacy
 initiatives by targeted civil society
 organizations                                   10           14            12           23
 13. Number of target civil society
 organizations that have received formal
 training on parliamentary advocacy              40           64           100           268
 14. Index of political party capacity to
 effectively frame and communicate
 policy positions                               n/a           n/a           4             4
 15. Free and fair elections held in
 Morocco                                        n/a           n/a          Yes           Yes
 16. Percentage of voting-age citizens
 who vote in a free and fair election           n/a           n/a          25%          37%




11
   We concluded that the mission met its targets if it achieved at least 80 percent of its planned
results.



                                                                                               26
                                                              APPENDIX IV



17. Progress on the civil society                                Was not
organization advocacy and monitoring                            available
index                                       n/a   n/a   50      at 9/30/07
18. Number of target local governments
making progress toward adopting new
codes of conduct                             1     1     2          2
19. Percentage of Inspectors General of
Administrative Territories using
advanced auditing methods and
investigative techniques                    10%   20%   50%       61%
20. Number of target local governments                          Indicator
where financial audits have been                                has been
conducted                                   n/a   n/a    3      dropped
21. Progress of local governments in
developing, implementing and/or
monitoring local development plans that
reflect stakeholder priorities               5     4     7          7
22. Percentage of targeted local
governments where community leaders
are participating in decisions related to
slum upgrading                              60%   30%   80%       57%
23. Percentage of local governments
that regularly consult with gender-
focused organizations and women
community leaders                           50%   40%   60%       66%
24. Percentage of local governments
that adopt a gender-sensitive approach
in their planning and budgeting
processes                                   n/a   n/a   20%       70%
25. Percentage of local governments
that have integrated planning,
budgeting, and management systems           10%    0    50%         0
26. Number of target local governments
that have made progress toward
investment-grade credit reporting            1     1     2          3
27. Percentage of local governments
that have expanded and/or improved
community services to poor/
disadvantaged areas                         10%   14%   30%       38%




                                                                            27
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
